No. 20-5774
IN THE SUPREME COURT OF THE UNITED STATES

ARCHIE MANZANARES, PETITIONER
V.
UNITED STATES OF AMERICA
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail, and first class mail,
postage prepaid on this 6th day of January 2021.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 6, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin=s phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

20-5774
MANZANARES, ARCHIE
USA

MARGARET ANN KATZE
FEDERAL PUBLIC DEFENDER
111 LOMAS BLVD.
STE. 501
ALBUQUERQUE, NM 87102

